KANJI & KATZEN, P.L.L.C.
www.kanjikatzen.com
ANN ARBOR
303 DETROIT ST., SUITE 400
ANN ARBOR, MI 48104
(734) 769-5400

SEATTLE
811 1ST AVE., SUITE 630
SEATTLE, WA 98104
(206) 344-8100

FLAGSTAFF
P.O. BOX 30543
FLAGSTAFF, AZ 86003
(928) 380-3508

November 13, 2020
BY ELECTRONIC FILING
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20543
Re:

Steven Mnuchin v. Confederated Tribes of the Chehalis Reservation, et al.,
S. Ct. Nos. 20-543, 20-544

Dear Mr. Harris:
We represent respondents Confederated Tribes of the Chehalis Reservation, Tulalip
Tribes, Houlton Band of Maliseet Indians, Akiak Native Community, Asa’carsarmiut Tribe, and
Aleut Community of St. Paul Island in the above-captioned matter. We have conferred with
counsel for respondents Navajo Nation, Pueblo of Picuris, Quinault Indian Nation, Elk Valley
Rancheria California, San Carlos Apache Tribe, Cheyenne River Sioux Tribe, Rosebud Sioux
Tribe, Nondalton Tribal Council, Arctic Village Council, Native Village of Venetie Tribal
Government, and Ute Tribe of the Uintah and Ouray Indian Reservation, who join in this request.
Pursuant to Supreme Court Rule 30.4, we hereby request on behalf of all respondents a
21-day extension of time in which to file responses to the petitions for a writ of certiorari in these
consolidated cases. The petitions for a writ of certiorari were docketed on October 26, 2020.
Responses to the petitions are currently due on November 25, 2020. If extended, the responses
would be due on December 16, 2020. There have been no previous extensions of time in this
matter. Should you need any additional information, please do not hesitate to let us know.
Sincerely,

Riyaz A. Kanji
Kanji & Katzen, P.L.L.C.
Kannon K. Shanmugam
Paul, Weiss, Rifkind, Wharton & Garrison LLP

cc:

Jeffrey Wall, Edwin Kneedler, Sopan Joshi, Matthew Guarnieri, Michael Raab, Daniel
Tenny, Adam Jed (counsel for petitioner Steven Mnuchin, Secretary of the Treasury)
Paul Clement, Erin Murphy, Ragan Naresh, Matthew Rowen (counsel for petitioner
Alaska Native Village Corporation Association, Inc., et al.)
Harold Chesnin (co-counsel for respondent Confederated Tribes of the Chehalis
Reservation)
Lisa Koop Gunn (co-counsel for respondent Tulalip Tribes)
Doreen McPaul, Paul Spruhan (counsel for respondent Navajo Nation)
Richard Hughes, Eric Dahlstrom, Donna Connolly, Reed Bienvenu, April Olson (counsel
for respondent Pueblo of Picuris, co-counsel for respondent Navajo Nation)
Lori Bruner (counsel for respondent Quinault Indian Nation)
Bradley Bledsoe Downes (counsel for respondent Elk Valley Rancheria, California)
Alexander Ritchie (counsel for respondent San Carlos Apache Tribe)
Natalie Landreth, Erin Dougherty Lynch, Matthew Newman, Wesley James Furlong,
Megan Condon (counsel for respondents Rosebud Sioux Tribe, Nondalton Tribal
Council, Arctic Village Council, Native Village of Venetie Tribal Government)
Nicole Ducheneaux (counsel for respondent Cheyenne River Sioux Tribe)
Jeffrey Rasmussen, Frances Bassett, Rollie Wilson, Jeremy Patterson (counsel for
respondent Ute Tribe of the Uintah and Ouray Indian Reservation)

